IN THE SUPREME COURT OF THE UNITED STATES
No.
ALFRED H. SIEGEL, TRUSTEE OF THE CIRCUIT CITY STORES, INC.
LIQUIDATING TRUST, PETITIONER
v.
JOHN P. FITZGERALD, III, ACTING UNITED STATES TRUSTEE
FOR REGION 4
CERTIFICATE OF SERVICE
I, Daniel L. Geyser, counsel for petitioner and a member of
the Bar of this Court, certify that, on September 20, 2021, three
copies of the Petition for a Writ of Certiorari in the abovecaptioned case were sent, by third-party commercial carrier for
overnight

delivery

and

by

electronic

mail,

to

the

following

counsel:
Brian H. Fletcher, Esq.
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W., Room 5616
Washington, DC 20530-0001
SupremeCtBriefs@usdoj.gov
Jeffrey E. Sandberg
Civil Division, Appellate Staff
United States Department of Justice
950 Pennsylvania Avenue, N.W., Room 7214
Washington, DC 20530-0001
jeffrey.e.sandberg@usdoj.gov
I further certify that all parties required to be served have
been served.
Daniel L. Geyser

